     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




   Despite Improvements in MoI’s Personnel Systems,
   Additional Actions Are Needed to Completely Verify
       ANP Payroll Costs and Workforce Strength




                                        April 25, 2011




SIGAR Audit-11-10 Security/ ANP Personnel Management Systems
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


April 25, 2011

The Honorable Robert M. Gates
Secretary of Defense

The Honorable Hillary Rodham Clinton
Secretary of State

General John N. Mattis
Commander, U.S. Central Command
The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan

General David H. Petraeus
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General William B. Caldwell, IV
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

This report discusses the results of an audit by the Office of the Special Inspector General for
Afghanistan Reconstruction (SIGAR) of Afghan National Police (ANP) personnel management systems,
including recruitment, pay and benefits, and force utilization. This report includes one recommendation
to the Department of State and four to the Department of Defense to improve accountability over ANP
workforce strength data, personnel and payroll data and records, and payment and reimbursement of
payroll costs.

A summary of this report is on page ii. SIGAR conducted this performance audit under the authority of
Public Law No. 110-181, as amended, the Inspector General Act of 1978, and the Inspector General
Reform Act of 2008. When preparing the final report, we considered comments from the Combined
Security Transition Command-Afghanistan, the U.S. Embassy in Kabul, and the United Nations
Development Programme. These comments are reproduced in appendices II-IV of this report,
respectively.




Herbert Richardson
Acting Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                      Page i
                SIGAR
                                                           SIGAR Audit-11-10                                         April 2011
                                                             Despite Improvements in MoI’s Personnel Systems,
                                                           Additional Actions Are Needed to Completely Verify ANP
                                                                    Payroll Costs and Workforce Strength
Special Inspector General for Afghanistan Reconstruction
What SIGAR Reviewed
The Afghan government’s ability to grow and sustain the ANP will depend in large part on the extent to which it has the
management systems and processes in place to track ANP personnel and to account for the ANP payroll, which is
primarily funded by the United States and other international donors. Since 2002, the United States and other
international donors contributed about $1.5 billion to the United Nations Development Programme’s (UNDP) Law and
Order Trust Fund for Afghanistan (LOTFA), which was established primarily to cover payroll costs for the Afghan
National Police (ANP). Current Afghanistan Ministry of Interior (MoI) plans call for an increase in ANP personnel from
81,509 in May 2009 to 134,000 by October 2011. The NATO Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan (NTM-A/CSTC-A) plays a key role in developing and implementing personnel management
systems and processes to account for the ANP workforce and payroll. This report assesses whether MoI’s (1) personnel
systems accurately account for the ANP workforce; (2) payroll system accurately accounts for the ANP payroll, including
money reimbursed by LOTFA; and (3) personnel and payroll systems will support the ANP and be sustainable. To
accomplish these objectives, SIGAR reviewed and analyzed ANP personnel and payroll systems, records, and oversight
documents and interviewed officials from the Departments of State and Defense, the Afghanistan government, and
UNDP. SIGAR conducted its work in Washington, D.C. and Kabul, Afghanistan, from June 2010 through March 2011, in
accordance with generally accepted government auditing standards.

What SIGAR Found
The MoI is automating its human resource records and developing personnel management systems to improve ANP
accountability. However, the MoI cannot determine the actual number of personnel that work for ANP because it has
been unable to reconcile personnel records or verify data in four different personnel systems and databases. As of
September 30, 2010, the number of ANP records in the different systems, databases, and processes ranged from
111,774 to 125,218. The MoI’s systems and databases contain basic ANP personnel, biometric, identification card, and
registration information. However, these systems and databases are decentralized and the records and data in them
are incomplete, unverified, and unreconciled.
Since 2002, UNDP has disbursed almost $1.26 billion from LOTFA to fund ANP salaries and other costs. Although the
MoI continues to make progress automating the payroll and payment processes, the MoI’s payroll system currently
provides little assurance that only those ANP personnel who work are paid and that LOTFA funds are only used to
reimburse eligible ANP payroll and other costs. As of September 2010, about 21 percent of ANP were still paid by cash
and neither MoI nor UNDP have verified payroll data and cannot confirm that only ANP who work have been paid.
UNDP, as the LOTFA administrator, has overall responsibility for oversight and monitoring of LOTFA funds and the
reimbursement of eligible ANP costs. However, UNDP cannot confirm that LOTFA funds reimbursed only eligible ANP
costs and its reports do not provide sufficient evidence that all audit findings are resolved; thus, additional procedures
are needed to improve the oversight and monitoring of ANP payroll costs and LOTFA funds. Until these issues have
been addressed, there is limited assurance that only ANP personnel who worked received pay and that LOTFA funds
were used to reimburse only eligible ANP costs.
The MoI is developing personnel and payroll systems to support the ANP. Current efforts to account for, automate, and
centralize all personnel and payroll data and records will further aid the sustainment of ANP. However, the MoI will
continue to face challenges gathering personnel and payroll data, centralizing the data within a system, and integrating
into other systems until long-standing issues with security, infrastructure, and coordination are addressed.

What SIGAR Recommends
To improve accountability for ANP personnel and payroll costs, SIGAR is making five recommendations, one to the U.S.
Ambassador to Afghanistan and four to the Commanding General of NTM-A/CSTC-A. These recommendations address
the need to improve UNDP’s administration and oversight of international donations in LOTFA and the MoI’s tracking of
ANP records, personnel, and payroll costs to include eligibility for LOTFA reimbursement. In commenting on a draft of
this report, the U.S. Embassy partially concurred with the recommendation to it and NTM-A/CSTC-A concurred or
partially concurred with the four recommendations to it. Both outlined actions it has taken or plans to take that will
substantially address our concerns. The UNDP also provided comments on a draft of this report.
                   For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil


SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                                                Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
MoI Cannot Determine An Accurate Number of ANP Personnel Available for Work .................................. 6
Progress Continues with Development of the MoI Payroll System But This System Still
    Provides Little Assurance That Only Persons Who Work for ANP Are Paid, Only
    Eligible Costs Are Reimbursed, and That Proper Oversight Is Provided .............................................. 10
The Development and Centralization of Personnel and Payroll Systems Will Continue
    To Be At Risk Until Security, Infrastructure, and Coordination Are Improved ..................................... 19
Conclusion ................................................................................................................................................... 21
Recommendations ...................................................................................................................................... 22
Comments ................................................................................................................................................... 23
Appendix I: Scope and Methodology ......................................................................................................... 24
Appendix II: Comments from U.S. Embassy in Kabul ................................................................................. 26
Appendix III: Comments from NTM-A/CSTC-A........................................................................................... 29
Appendix IV: Comments from the United Nations Development Programme ......................................... 33


TABLES

Table 1: Number of ANP Human Resource/Personnel Records as of September 2010 ............................... 7
Table 2: Number of Registered ANP and Status of HRIS database as of September 2010........................... 7
Table 3: Status of Verified Payroll Plan at MoI as of September 2008 and 2010 ....................................... 11
Table 4: Number of ANP Payroll and Personnel Records at Selected Locations for
    September 2010 ................................................................................................................................... 12


FIGURES

Figure 1: U.S. and International Donations to LOTFA through September 30, 2010 ................................... 3
Figure 2: LOTFA Disbursements to Reimburse ANP Costs through September 30, 2010 ............................ 5




SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                                                                           Page iii
ACRONYMS

AABIS                  Afghanistan Automated Biometric Identification System
AFMIS                  Afghanistan Financial Management Information System
AHRIMS                 Afghanistan Human Resources Information Management System
ANA                    Afghan National Army
ANP                    Afghan National Police
ANSF                   Afghanistan National Security Forces
DAB                    Da Afghanistan Bank, Central Bank of Afghanistan
CSTC-A                 Combined Security Transition Command-Afghanistan
EFT                    Electronic Funds Transfer
EPS                    Electronic Payment System
HRIS                   Human Resources Information System
LOTFA                  Law and Order Trust Fund for Afghanistan
MoF                    Ministry of Finance
MoI                    Ministry of Interior
MoIBC                  MoI Biometric Center
NATO                   North Atlantic Treaty Organization
NTM-A                  NATO Training Mission-Afghanistan
PAI                    Personnel Asset Inventory
PERSTAT                Personnel Statistics report
UNDP                   United Nations Development Programme




SIGAR Audit-11-10 Security/ANP Personnel Management Systems                        Page iv
   Despite Improvements in MoI’s Personnel Systems, Additional Actions Are
    Needed to Completely Verify ANP Payroll Costs and Workforce Strength


A primary objective of the United States, the international community, and the Government of
Afghanistan is the development of an Afghan National Police (ANP) force capable of protecting Afghan
citizens and upholding the rule of law across the country. Current plans call for increasing the number
of ANP personnel from 81,509 in May of 2009 to 134,000 by October 2011. The Afghan government’s
ability to grow and sustain the ANP will depend in large part on the extent to which it has the
management systems and processes in place to track ANP personnel and to account for the ANP payroll,
which is primarily funded by the United States and other international donors.

The government of Afghanistan does not have the financial resources to sustain ANP salaries and other
related costs at either the current or projected levels. The United States, in partnership with the
international community and the Afghan government, has supported the development and
maintenance of multiple management systems to keep track of ANP personnel and salary
disbursements. Since 2002, the international community has contributed about $1.5 billion to the Law
and Order Trust Fund for Afghanistan (LOTFA), which is administered by the United Nations
Development Programme (UNDP), to fund recurrent ANP costs — primarily salaries, allowances, and
benefits.

We initiated this audit to determine the extent to which the Afghan government has the personnel
management systems and processes it needs to effectively and efficiently support an independent and
accountable police force. This report assesses whether the MoI’s 1) personnel systems accurately
account for the ANP workforce, 2) payroll system accurately accounts for the ANP payroll, including
money disbursed by LOTFA, and 3) personnel and payroll systems will support the ANP and be
sustainable.

To meet these objectives, we collected and analyzed personnel and payroll data, records, and
monitoring and oversight documents. We also examined various MoI personnel and payroll systems,
databases, and processes. In addition, we interviewed officials from the U.S. Embassy in Afghanistan;
the Department of State’s Bureau for International Narcotics and Law Enforcement Affairs; the
Department of Defense’s Office of the Secretary of Defense; the International Security Assistance Force
Joint Command; North Atlantic Treaty Organization (NATO) Mission Training-Afghanistan/Combined
Security Training Command-Afghanistan (NTM-A/CSTC-A); United Nations Development Programme
(UNDP); Afghanistan Ministries of Interior (MoI) and Finance (MoF); and contractors supporting these
systems. We conducted our work in Washington, D.C. and Kabul, Afghanistan, from June 2010 to March
2011, in accordance with generally accepted government auditing standards. A discussion of our scope
and methodology is included in appendix I.




SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                      Page 1
BACKGROUND

The U.S. strategy for Afghanistan emphasizes building Afghanistan National Security Forces (ANSF)
capable of independently providing for the internal and external security of Afghanistan. More than half
of the $56 billion that Congress has appropriated since 2002 for the reconstruction of Afghanistan —
approximately $29.3 billion — is for the development of the Afghan National Army (ANA) and the
Afghan National Police (ANP). Approximately one-third of the U.S. investment in the ANSF goes to
training, equipping, housing, and sustaining the ANP. Current ANSF development plans call for the ANP
to grow to 134,000 personnel by October 2011.

In April 2009, the Department of Defense reported to Congress that establishing personnel management
systems and processes is critical to building sustainable ANSF.1 Multiple stakeholders — the UNDP and
international donors, the MoI, the MoF, and NTM-A/CSTC-A — play a role in developing and
implementing personnel management systems and processes to account for the ANP workforce and
payroll.

The government of Afghanistan does not have the financial resources to sustain ANP salaries and other
related costs at either the current or projected levels. In 2002, the Government of Afghanistan and its
international partners agreed to establish LOTFA to support the development of the ANP by covering
certain recurrent costs, including the payment of police salaries, allowances, and benefits nationwide.
The United States has historically been the largest single contributor to LOTFA, providing nearly
32 percent of total contributions. U.S. funding for LOTFA has come primarily from the Department of
Defense’s Afghanistan Security Forces Fund and the Department of State’s International Narcotics and
Law Enforcement Fund. Since 2002, the U.S. and other international donors have contributed about
$1.5 billion to LOTFA over five phases. Donations from the international community were almost
$1.4 billion through September 30, 2010, (see figure 1 below) and the United States donated an
additional $104.48 million in October 2010. Most of this money has gone to pay ANP salaries.




1
 United States Plan for Sustaining the Afghan National Security Forces, April 2009 Report to Congress in
accordance with the National Defense Authorization Act of 2008 (Section 1231, Public Law 110-181).
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                                Page 2
Figure 1: U.S. and International Donations to LOTFA through September 30, 2010
                                                                                 Donations total $1.4 billion
    350,000,000

    300,000,000

    250,000,000                                                                   Other ($215.3 million)
    200,000,000
                                                                                  Canada/CIDA ($79.6 million)
    150,000,000

    100,000,000                                                                   Japan ($324.6 million)
     50,000,000
                                                                                  European Commission ($334.8
               -                                                                  million)
                                                                                  USA ($441.1 million)




Source: SIGAR analysis of UNDP’s quarterly and annual LOTFA reports.

Note: Numbers affected by rounding.

The MoI has authority over the ANP, including the Afghan Uniformed Police, Afghan Border Police,
Afghan National Civil Order Police, and other uniformed enablers (including intelligence, anti-crime,
counter narcotics, traffic, medical, and fire). The United States has been assisting the MoI to develop
new management systems and to strengthen existing systems. The MoI is currently using four systems
and processes to report on ANP personnel (numbers 1 – 4 below) and one system to account for ANP
payroll (number 5 below):

    1. Manual personnel records: The MoI maintains paper records for each ANP member as assigned
       by region, province, district, and individual unit. These records are maintained at MoI
       headquarters for officers (including sergeants) and at the provincial level for all patrolmen. The
       MoI submits a monthly report on the total number of ANP personnel to the UNDP to use for its
       monthly payroll report.
    2. Identification card/registration database: The United States is funding a contract to assist the
       MoI in maintaining a separate ANP identification card/registration database.
    3. Personnel Statistics reports (PERSTAT): The MoI manually reports the total number of ANP
       authorized (tashkil)2 and assigned to each region, province, district and unit by ANP component,
       ANP workforce strength, and ANP not authorized to be funded by international contributions
       (non-tashkil). These reports are prepared by hand and reported monthly.




2
 MoI prepares an organizational document called the tashkil, which dictates force structure, personnel strength,
and mission descriptions for the ANP that are funded through LOTFA by international donations.
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                                Page 3
   4. Afghanistan Automated Biometric Identification System (AABIS): The United States has a
      contract to assist the Afghan government in collecting and managing the biometric data for all
      of the ANSF.
   5. The Electronic Payroll System (EPS): UNDP created and maintains EPS, the MoI’s payroll system.
      The MoI uses manual time and attendance records to process monthly payroll in each of
      161 stand-alone EPS. The MoI submits the EPS-processed payroll information to the MoF, which
      is responsible for managing all Afghanistan ministry financial transactions, including the
      payment of salaries. The MoF records the EPS information provided by the MoI into the
      Afghanistan Financial Management Information System (AFMIS), which is the country’s
      government-wide accounting system.

The MoF provides a budget to MoI for all operating expenses, including ANP payroll and other costs.
The UNDP uses the international contributions to LOTFA to reimburse the MoF for ANP payroll and
other costs that are eligible under the LOTFA agreements. The UNDP is responsible for the
administration and oversight of LOTFA. As of September 2008, the LOTFA agreements stipulate that the
UNDP will also contract with a monitoring agent to perform monthly audits of the ANP payroll.

LOTFA provides the majority of funds used to reimburse ANP police salaries, benefits, and other
compensation. From 2002 through September 30, 2010, LOTFA disbursed about $1.26 billion to
reimburse MoF for ANP costs; more than 91 percent of this amount was for police salaries, food
allowances, and other pay (see figure 2 below).




SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                       Page 4
Figure 2: LOTFA Disbursements to Reimburse ANP Costs through September 30, 2010

                                                                    Disbursements Total About $1.26 Billion
                      $16.5 million or 1%
                                       $42.4 million or 4%
         $50.4 million or 4%




                                                                                         Police Remuneration
                                                                                         UNDP Fee
                                                                                         Construction
                                                     $1.15 billion or 91%
                                                                                         Other




Source: UNDP’s quarterly and annual LOTFA reports.
Note: Numbers affected by rounding.

The MoF uses four mechanisms to pay ANP personnel. The first two are the electronic payment
processes and the last two are the manual cash payment processes:

    1. Electronic Funds Transfer (EFT): The MoF processes the payment in AFMIS and the funds are
       transferred from the Central Bank of Afghanistan (Da Afghanistan Bank or DAB) to an
       individual’s commercial bank account electronically. Typically this is through Kabul Bank, which
       has the largest number of satellite branches. EFTs have two advantages. First, they eliminate
       the potential for skimming by superiors. Second, because they require an individual to collect
       his/her salary, they reduce payments to ghost employees.
    2. Cell Phone or M-Paisa Mobile Salary Disbursement Scheme: In July 2009, the Afghan
       government started a pilot program that remains currently underway for mobile banking in the
       Wardak and Khost Provinces. The objective is to create an alternative to an EFT in places where
       an EFT is not available, such as in remote areas where there is no banking network.
    3. Pay by List: In areas where there is no commercial bank, employees can be paid through DAB,
       which does not service individual accounts. Rather, it pays each individual where there is DAB
       and no commercial bank per a prepared list of identified ANP employees.
    4. Trusted Agent: A government employee picks up the payroll from either DAB or Kabul Bank or
       other commercial bank with funds transferred from DAB (similar to EFT and cell phone
       payments). The unit commander, or other trusted agent, makes payment to the individual

SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                             Page 5
           employee where there is neither the DAB nor a commercial bank. This payment method is
           subject to the greatest risk of abuse, including skimming of salaries and payments to ghost
           employees.


MOI CANNOT DETERMINE AN ACCURATE NUMBER OF ANP PERSONNEL AVAILABLE FOR
WORK

The MoI cannot accurately determine the actual number of personnel that work for ANP because it has
been unable to reconcile its personnel records with ANP personnel reported as available for work.
LOTFA-required annual audits of financial statements for 2004 through 2007 found that ANP personnel
workforce counts could not be verified. In response, the MoI stated that it had initiated actions to
maintain updated records of ANP workforce strength. As of January 2011, several MoI projects
designed to improve accountability for personnel records and data had been completed, were in
process, or were being planned. However, the MoI still maintains records in decentralized, unlinked,
and inconsistent systems. The data in these systems has neither been reconciled nor verified.
According to Standards for Internal Control in the Federal Government,3 periodic comparisons of
resources with recorded accountability should be made to reduce the risk of errors, fraud, misuse, and
unauthorized alteration of data. The success of these projects will depend on the MoI’s ability to
accurately gather data, report workforce strength, reconcile records, and verify data.

Actual Size of ANP Workforce Cannot Be Determined

The MoI cannot accurately determine the size of the ANP workforce because it does not have a
complete personnel or human resource database to track and account for all ANP personnel data. The
MoI currently uses various manual and automated processes to track ANP personnel data and human
resource records provided from the units, districts, and precincts to MoI headquarters. However, the
number of records and the completeness of the data varies depending on the system, database, or
process.

Currently, the MoI has completed or initiated several projects to establish adequate personnel records
to authorize, assign, and track the ANP. These projects are:

          Human Resources Information System (HRIS) – During 2010, the MoI began transferring manual
           MoI human resource records into MoI’s newly developed, automated HRIS database from its
           identification card/registration database.
          Personnel Asset Inventory (PAI) – From October 2009 until July 1, 2010, MoI attempted to
           conduct a PAI of all ANP personnel, including biometrics and drug tests. The information was
           entered into separate databases.
          Revised AABIS – The MoI Biometric Center (MoIBC) has initiated efforts to eliminate multiple
           records with the same fingerprints from its existing AABIS database.

As of September 30, 2010, the number of ANP records in the different systems, databases, and
processes ranged from 111,774 to 125,218 (see table 1). The MoI, with the assistance of
NTM-A/CSTC-A, has initiated several projects to automate MoI systems and processes to fully account
for the ANP workforce strength. However, a comparison of the number of records in these different
systems and an assessment of the completeness of their data has not been performed. Until these

3
    GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, November 1999.
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                          Page 6
projects are successfully completed with reconciliations and verifications, the MoI cannot ensure that its
reports on ANP staffing levels are accurate and that personnel and human resource data are complete
and reliable. Both NTM-A/CSTC-A and UNDP have cited issues with data collection, data accuracy, and
database compatibility as reasons why the data have not been reconciled.

Table 1: Number of ANP Human Resource/Personnel Records as of September 2010
                                                                                             No. of ANP
 Source of ANP Human Resource/Personnel Data
                                                                                               Records
 Manual MoI human resource records                                                            111,774
 Personnel identification card/registration database                                          125,218
                              a
 PERSTAT report - Assigned                                                                    120,504
 Afghanistan Automated Biometric Identification System (AABIS)                                113,225
Source: MoI Human Resources and Biometric Center.
     a
Note: Does not include more than 8,100 non-tashkil ANP that are reported by MoI Human Resources.

As of September 2010, the MoI identification card/registration database reported 125,218 ANP
personnel registered. However, the database also reported that there are still 33,595 ANP without
identification cards (about 27 percent of ANP) as of October 2010. Additionally, in preparation for the
conversion to the Afghanistan Human Resources Information Management System (AHRIMS), the MoI,
through a U.S. contract, is transferring its manual human resource and personnel records for each
individual in the ANP into the automated HRIS database, which is already populated with data from the
MoI identification card/registration database. MoI’s Human Resources staff is manually scanning
thousands of records, and as of September 2010, 19 percent of registered ANP personnel, including
about 50 percent of officers and sergeants, had been transferred to the HRIS system. Table 2 reflects the
number of ANP records in the identification card/registration database and the status of efforts to
create electronic personnel/human resource records for all ANP personnel in HRIS as of September
2010.


 Table 2: Number of Registered ANP and Status of HRIS database as of September 2010
                                            Identification Card/
                                                                                           Not Yet Included
 ANP Rank                                            Registration               HRIS
                                                                                                     in HRIS
                                                        Database
 Officers                                                22,698             16,709                   5,989
 Sergeants                                               25,761              7,556                  18,205
 Patrolmen                                               76,759                                     76,759
 Total                                                  125,218             24,265                 100,953
 Source: MoI Registration ID Unit.
 Note: Total includes 1,700 officers and sergeants in both databases but no longer on the force.

In September 2010, at the same time our audit raised several questions regarding monthly PERSTAT and
related attrition reports, NTM-A/CSTC-A revised the method it used to determine the total number of
ANP personnel assigned and workforce strength reported in MoI’s monthly PERSTAT reports. The
revision was needed to correct an error by CSTC-A in translating from Dari the number of assigned ANP
personnel reported each month. The error resulted in double counting between 10,000 and 12,000 ANP
enablers (medical, fire and rescue, anti-crime, counter-narcotics, etc.) each month since July 2008.
CSTC-A’s revision resulted in a net decrease in its reported number of assigned ANP from
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                                    Page 7
120,504 personnel in September 2010 to 116,367. The revised method now includes over-tashkil ANP
(assigned personnel in excess of authorized levels) and ANP in training, which was 4,202 and
8,034 respectively, in October 2010. NTM-A/CSTC-A also reported that it is reassessing its method for
reporting ANP attrition.

Another issue concerns the duplication of records within AABIS. A MoIBC official stated that between
138,000 to 163,000 records in the AABIS relate to ANP, but only about 113,000 of those contain rank
and location information as of October 2010. The official also stated that MoIBC could not confirm that
there were no duplicate ANP personnel among these 113,000 records. CSTC-A stated that AABIS keeps
duplicate biometric enrollments as unique entries since the current software does not easily allow the
biometric data to be filtered and sorted so that an accurate count and reconciliation can be done. The
MoIBC official added that the Center has initiated projects to improve the biometric data in AABIS since
biometrics offer unique identifiers that help verify and identify ANP personnel. One project consists of
purchasing biometric identification verifiers to help MoI and CSTC-A determine if a fingerprint is already
in AABIS and whether another scan is needed. The official added that these verifiers will be used with
AABIS to provide individual ANP personnel with unique identifiers and with Biometric Jump Kits4 for
future PAI and as part of regular ANP in-processing procedures. According to the Center’s official, these
verifiers will also be used to accurately generate time and attendance records, distribute pay, and help
prevent double counting of ANP in future PAIs.

In October 2009, the MoI with the assistance of NTM-A/CSTC-A performed a PAI to achieve 100 percent
accountability for all ANP personnel and weapons. The PAI collected data consisting of personal
information, fingerprints, iris scans, photographs, and drug-test results. Stored in newly created
databases intended to serve as the foundation for a MoI Human Resources database, the data collected
included 98,970 PAI registrations; 97,042 biometric registrations; and 100,518 drug tests. Although the
MoI reported the PAI a success, it did not provide accountability for ANP personnel numbers or the
necessary data to easily compare records in other systems and databases.

The PAI was intended to serve as a two-month snapshot of ANP forces present for duty, but the data
was captured over a nine-month period. As a result, the MoI used a total of 99,831 ANP that were
called to muster for the PAI based on assigned ANP as of the dates of different PAI phases.5 However,
the PAI report6 identified a total of 93,809 assigned ANP at the beginning of the PAI and 105,873 at the
end of the PAI. Furthermore, the data captured did not account for the total number of recruits or
attrition of ANP during this period. Therefore, it provided no assurance that all ANP were registered
during the PAI or still with the force. In addition, almost 16,900 biometric registrations could not be
verified by other ANP and ANA records. The PAI report also noted the following issues that limit the
usefulness of the exercise:

        Numerous challenges surfaced during the registration process, including transportation delays
         of clerks and supplies, database corruption and equipment failure, and inadequate
         infrastructure.
        A lack of training and capacity to conduct the PAI may have resulted in records that were either
         not completed, or not completed correctly.

4
  Jump Kits gather biometric data consisting of fingerprints, photographs, iris scan, and personal information.
5
  MoI used the total reported ANP assigned for eight provinces as of October 2009 (Phase I and IIA) and
26 provinces as of February 2010 (Phase IIB) as the population size for PAI.
6
  The Islamic Republic of Afghanistan, Ministry of Interior, Personnel Asset Inventory: Afghan National Police,
September 2010.
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                                   Page 8
       The PAI reported that 99 percent of the ANP personnel assigned were registered, but the
        number registered varied significantly across the 34 provinces. The reported registration
        percentages for nine provinces (Farah, Nimroz, Badakhshan, Paktika, Badghis, Kunduz, Nuristan,
        Kunar, and Takhar) were less than 80 percent, ranging from 58 percent in Farah to 75 percent in
        Takhar. While the reported registration percentages for seven other provinces (Balkh, Wardak,
        Nangarhar, Paktya, Ghor, Kabul, and Herat) were more than 105 percent; ranging from a
        reported 107 percent in Herat to 181 percent in Balkh. These higher percentages in some
        provinces were reportedly due to the inclusions of both the ANP no longer assigned and their
        replacements.

The MoI is Planning Two Projects to Improve Accountability

The MoI is planning two projects to establish adequate personnel records to authorize, assign, and track
the ANP. These projects are:

       Second PAI – In the spring of 2011, the MoI plans to conduct another ANP headcount and
        verification of personnel data. The plan is to obtain 100 percent accountability of the ANP
        workforce and verify the personnel and payroll data in the various systems.
       AHRIMS - NTM-A/CSTC-A is planning to implement AHRIMS to account for and track ANSF
        personnel and human resource data for the MoI and the Ministry of Defense. The plan includes
        incorporating biometric data and maintaining time and attendance records.

On November 7, 2010, NTM-A/CSTC-A told us that the MoI planned to conduct a second PAI in January
2011. Based on the results of the first PAI and our preliminary audit observations, we reported to
NTM-A/CSTC-A that several steps, taken at that time, could improve the results of this second PAI.7
These additional steps could assist the MoI in achieving the desired ANP accountability and provide the
necessary data to verify and reconcile data and records in the various MoI payroll and personnel
databases and systems. Complete and accurate records in these payroll and personnel databases and
systems would provide the mechanism to more easily link ANP records and data in the current systems,
avoid potential duplications of payments, and develop accurate tracking of ANP personnel throughout
Afghanistan.

In February 2011, CSTC-A informed us that the MoI, with NTM-A’s assistance, is planning a country-wide
PAI as part of a complete inventory of the ANSF. The new plan consists of multiple phases over a six-
month period to conduct a 100 percent headcount of all ANP, validate the data in MoI’s various payroll
and personnel systems and databases, and create records for ANP that are not currently in the systems
and databases. This second PAI is scheduled to begin this spring and is expected to validate information
in HRIS and EPS, update AABIS, conduct sample drug tests, collect information on training, and issue
identification cards. Identification cards numbers will be utilized as the common data fields for the
various payroll, biometric, and personnel databases and systems.

In addition to these MoI projects to improve ANP accountability, NTM-A/CSTC-A received authorization
to create AHRIMS to track and account for all ANSF personnel and human resource records in August
2010. The plan is to utilize the existing ANA database, the Personnel Information Management System,
and HRIS in AHRIMS for ANA data and ANP data, respectively. AHRIMS is expected to be implemented
at ANP district levels and ANA battalion levels to completely automate and link all ANA and ANP


7
 November 26, 2010 management letter action for consideration related to a second PAI addressed to the
Commanding General of NTM-A/CSTC-A.
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                              Page 9
personnel and human resource records. AHRIMS is also expected to include biometric information
(from AABIS) and time and attendance records. NTM-A/CSTC-A expects to award a contract for the pilot
by July 2011. The urgency of completing the other projects and ensuring the accuracy and consistency
of ANP records and data in the various systems and database is heightened by the need to generate
reliable data and information for this ANSF-wide project.


PROGRESS CONTINUES WITH DEVELOPMENT OF THE MOI PAYROLL SYSTEM BUT THIS SYSTEM
STILL PROVIDES LITTLE ASSURANCE THAT ONLY PERSONS WHO WORK FOR ANP ARE PAID,
ONLY ELIGIBLE COSTS ARE REIMBURSED, AND THAT PROPER OVERSIGHT IS PROVIDED

MoI and UNDP are progressing in automating the payroll and payment processes, but they cannot verify
that payroll disbursements were only made to persons working for ANP or that LOTFA funds reimbursed
only eligible ANP payroll and other costs. In addition, more oversight and monitoring over ANP costs
and LOTFA funds are needed. MoI, with help from UNDP, continues to progress in the implementation
of MoF’s verified payroll plan by establishing individual payroll accounts and eliminating cash payroll
disbursements to ANP. As of September 2010, about 21 percent of ANP were still paid by cash and
neither MoI nor UNDP have verified payroll data and cannot confirm that only ANP who work have been
paid. UNDP, as the LOTFA administrator, has overall responsibility for oversight and monitoring of
LOTFA funds and the reimbursement of eligible ANP costs. However, UNDP cannot confirm that LOTFA
funds only eligible ANP costs and its reports do not provide sufficient evidence that all audit findings are
resolved; thus, additional procedures are needed to improve the oversight and monitoring of ANP
payroll costs and LOTFA funds. Until these issues have been addressed, there is limited assurance that
only ANP personnel who worked received pay and that LOTFA funds were used to reimburse only
eligible ANP costs.

Progress Made in Developing Individual Payroll Records and Automated Payroll Processing
but Data Have Not Been Verified

In 2004, the MoF adopted a verified payroll plan designed to automate salary payments by establishing
individual records in EPS. The plan addressed long standing issues, such as skimming and other forms of
corruption related to cash distributions, by replacing cash payments with electronic funds transfers
(EFTs). The MoI has made considerable progress towards implementing the verified payment plan.
According to the UNDP almost all ANP personnel had individual payroll accounts in the EPS and nearly
80 percent of ANP pay had been converted from cash payments to EFTs as of September 2010. The
UNDP based these percentages on the number of personnel records reported by the MoI. However,
the validity of these percentages cannot be determined until MoI human resource records are
reconciled with the MoI PERSTAT. Standards for Internal Control in the Federal Government8 states that
periodic comparisons of resources with recorded accountability should be made to help reduce the risk
of errors, fraud, misuse, and unauthorized alteration.




8
    GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, November 1999.
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                         Page 10
MoI Implementation of Verified Payroll Plan is Progressing

The MoI has made progress in implementing the MoF verified payroll plan over the last six years, but the
data in the EPS has not been verified and may not be reliable. Starting in Phase V (September 2008-
December 2010), a contractor hired by the UNDP provided independent monitoring and reporting of
ANP payroll process and payments. The monitoring agent reported on the following:

       the number of ANP reported by MoI Human Resources from its manual records,
       the number of ANP added to the EPS,
       the number of ANP switching from cash payments to EFT, and
       the sum of ANP payroll transactions processed as reported in detailed monthly payroll reports
        (M41 forms) each month.

UNDP has shown steady progress in establishing independent payroll accounts in EPS and converting
cash payroll payments to EFT. See table 3 for the status of the plan in September 2008 and September
2010. As an alternative to EFT, a pilot mobile banking program has been expanded to 255 ANP in
Wardak and Khost provinces to further reduce the number of ANP that receive cash payroll payments.


 Table 3: Status of Verified Payroll Plan at MoI as of September 2008 and 2010
                                                  2008 No.                             2010 No.
                                                                Percentage of                        Percentage of
 Source of Payroll Data                             of ANP                               of ANP
                                                              2008 HR Records                      2010 HR Records
                                                   Records                              Records
 Monitoring Agent Payroll Verification                                                111,739              99.9%
 (M41s)
 Electronic Payroll System (EPS)                  60,830                77.7%         111,437              99.7%
 Electronic Funds Transfer (EFT)                  33,137                42.3%          88,135              78.9%

 MoI Human Resource Records (manual)              78,249              100.0%          111,774             100.0%
 Source: UNDP-provided data obtained from unverified provincial data submitted by MoI Human Resources.

However, the actual progress in verifying payroll data cannot be easily or accurately measured because
numbers per manual records do not match numbers of assigned ANP reported for the same period. For
example, in the September 2010 PERSTAT report, the MoI’s Human Resources department reported
total assigned ANP of 120,504 (excluding about 8,100 ANP that are not reimbursed by LOTFA funds) but
manual records reported totaling 111,774 ANP personnel to UNDP. The difference was 8,730 or about
7.8 percent.

MoI Electronic Payroll System Data Not Reconciled Nor Verified

The accuracy of the number of records in the EPS cannot be determined because the EPS is a stand-
alone, decentralized system. ANP numbers vary in other systems and totals and individual records have
not been reconciled or verified. The UNDP, its monitoring contractor, and NTM-A/CSTC-A (with its
contractor) are participating in a working group to 1) update the 161 stand-alone EPS’s within Kabul and
the other 33 provinces, and 2) consolidate them into a nationwide web-based EPS application. Part of
this effort includes verifying EPS data by capturing and reconciling personnel data contained in the MoI’s
manual human resource records, identification card/registration records, and PAI registration database.
However, UNDP has not been able to easily match EPS records with the other data because of issues

SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                                 Page 11
related to the completeness and accuracy of other databases. For example, according to UNDP, the
data fields in the PAI database do not match the data fields in the EPS databases, making it difficult to
reconcile the PAI and EPS data with each other and with the MoI’s manual ANP records. As of
November 2010, the UNDP reported that three provinces and part of Kabul headquarters had been
reconciled, validated, and fully integrated into a web-based EPS. However, there was no information
provided on the status of its efforts to reconcile and validate each of the 111,936 ANP records and data
in EPS with the MoI manual human resource records, MoI identification card/registration, and PAI
registration databases to help determine whether each ANP employee has an EPS record.

Additionally, we compared the number of ANP records from the various sources for five districts and
one non-tashkil unit for September 2010. We found the number of ANP records in the various payroll
and personnel systems and databases at the district- and unit-level varied as much as the overall totals
for the same systems and databases (see table 4). Security concerns and infrastructure challenges
contribute to delays in obtaining data and documentation from stand-alone systems. In addition district-
and unit-level data are not available on either AABIS or the PAI database. We found the same number
of ANP with payroll processed (M41) were paid (bank report) for three of six locations tested. We also
determined that there should be sufficient pay, personnel, and time and attendance data and records
available to perform detailed payroll tests and observe pay distributions at most district- and unit-levels.
However, we found that the number processed and paid did not match the number of reported ANP
assigned and that the level of the completeness and reliability of information varied by location and type
of report. We particularly noted the discrepancies in the Dehroud district of Uruzgan province.


Table 4: Number of ANP Payroll and Personnel Records at Selected Locations for September 2010
                                                                         M41         M16            MoI ID Card/
                                                      1    PERSTAT                                                   Bank
District/Unit    Region    Province      Authorized               2   Detailed   Summary      EPS   Registration          6
                                                          Assigned           3           4                     5   Report
                                                                      Payroll     Payroll            Database

Gulstan          West      Farah              100             96         99         108      100           55         99
Hazrat Emam
Sahim       North          Kunduz             188            194         81          81      143           35         81
Copper &
Mine Unit        Central Logar                  X          1,330      1,224       1,520       X         1,674      1,224
Jalrez           Central Wardak                53             41         48           X       50           23          X
Urgoon           East      Paktika            200            173        104         443       65           30          X
Dehroud          South     Uruzgan            191            139          X           X      312          161          X
Source: SIGAR analysis of MoI reports.
Notes: X = Documentation was either not available or not provided.
1
  The number of ANP authorized as per tashkil, which is the annual report of ANP authorized positions.
2
  The number of ANP assigned (available for work) as reported in MoI personnel statistics report (PERSTAT).
3
  The total number of ANP personnel from monthly payroll registers (EPS form M41).
4
  The total number of ANP personnel from monthly payroll summary reports of total transactions processed (EPS form M16).
5
  The total ANP registered from MoI identification card/registration database.
6
  The total ANP payroll disbursements reported by the banks.

Subsequent MoI and UNDP site visits to the Uruzgan Province to investigate why more ANP were paid
than authorized, assigned, or registered in the Dehroud District confirmed our concerns about the
district. After completing our analysis, we provided the above information to UNDP and NTM-A/CSTC-A
for follow up since the number of ANP paid was 173 more than the number assigned to the district for
September 2010. CSTC-A stated the trip was a routine site visit to investigate 1) why the province’s ANP

SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                                        Page 12
payroll costs exceeded budgeted amounts and 2) why M41s were not provided by MoI or UNDP after
being requested for several months. Our concerns were heightened when the method used to report
ANP assigned in the PERSTAT changed (see discussion in earlier section). The change resulted in about
2,775 more ANP being paid than assigned throughout ANP in October 2010.

In December 2010, an MoI payroll assessment team visited Uruzgan Province to follow up on our
concerns that more ANP were reported to have been paid than assigned in the Dehroud District and to
assess Uruzgan’s financial operations. The MoI payroll assessment teams, operating under
NTM-A/CSTC-A guidance9 that standardized the process for reporting and resolving ANP pay and
mentor issues, conducted 31 such site visits to various EPS locations throughout Afghanistan between
August 2010 and December 2010. Also in December 2010, the UNDP monitoring contractor, responsible
for auditing ANP payroll costs within all 34 provinces performed a separate site visit to the Uruzgan
Province. The two Uruzgan Province site visits confirmed our concerns and identified the following MoI
issues:

       Serious problems creating and maintaining M41 payroll documentation;
       No one was able to verify the amount paid to ANP personnel or which individuals had received
        cash payments – all Uruzgan Province is paid by cash;
       No method existed for verifying that personnel on the M41 were authorized to be paid (opening
        up the potential for ghost employees); and
       MoI approved and sent additional quarterly allotments to cover more ANP assigned personnel
        than positions authorized even though MoI reported fewer assigned ANP than positions
        authorized.

NTM-A/CSTC-A also made several recommendations for immediate and long-term action as a result of
the two site visits. The recommendations included issuing ANP identification cards, expanding banking
options, introducing and expanding the EPS and EFTs throughout the province, completing time and
attendance reports and monthly payroll registers (M41s), and using biometrics. The MoI is planning to
perform similar site visits throughout the country. While this is a positive step, there will continue to be
little to no assurance that only those individuals working for ANP receive payroll payments until the data
can be verified and corrective actions have been implemented.

UNDP Reconciles Current Payroll Costs but Cannot Ensure that Only Eligible ANP Costs Are
Reimbursed

The UNDP reconciled the ANP’s 2009 payroll costs but it did not provide assurance that the LOTFA funds
paid to MoF reimbursed only eligible ANP costs. UNDP performs a monthly reconciliation of ANP costs
and quarterly reimbursements to the MoF, but it does not perform a complete reconciliation until the
end of year when adjustments are made for ineligible amounts. We cannot assess the degree to which
the UNDP reconciled ANP costs prior to 2009 because the MoI and the MoF did not maintain complete
payroll cost and financial information. The 2009 annual LOTFA audit report noted that ANP payroll costs
could not be audited until subsequent quarters due to the untimely submission of EPS reports. We
found that the support for the completed 2009 reconciliation (through March 2010) did not include


9
 NTM-A/CSTC-A Fragmentary Order (FRAGO) 10-371 Afghan National Police Monthly Pay Process Standard
Operating Procedures – ANP Pay Resolution and Mentor Audit Process, effective September 2010. In February
2011, NTM-A/CSTC-A noted additional members will be added to the Payroll Assessment Teams by September
2011.
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                          Page 13
sufficient documentation to determine if only eligible costs were reimbursed and that the 2010 ANP
payroll costs have not yet been reconciled.

Standards for Internal Control in the Federal Government states that an agency must establish physical
control to secure and safeguard assets, including cash, which might be vulnerable to risk of loss or
unauthorized use. Such assets should be periodically counted and compared to control records. In
addition, guidance in the LOTFA contract10 states that funds are to be disbursed only to policemen who
are physically serving or otherwise lawfully entitled to compensation. The UNDP’s project document
also requires quarterly reconciliation and reimbursement of ANP costs.

For the year ended in March 2010, the UNDP reimbursed 100 percent of ANP payroll and food costs up
to the tashkil limit of 122,000 ANP and performed a complete reconciliation at the end of the Afghan
year. Part of this complete year-end reconciliation is for UNDP to determine the eligibility of ANP costs
and adjust the payroll costs before it makes final reimbursement to MoF. According to UNDP officials,
reconciliation and adjustment are performed at the end of the year due to the labor-intensive nature of
the data. The MoF’s AFMIS only accounts for the total of all uniformed ANP payroll costs and food
allowances. It does not separate the ANP costs by tashkil and non-tashkil categories. Specifically, we
found that:

        MoI and MoF do not maintain systems that have the kind of detailed information needed to
         identify specific ANP costs that are eligible for reimbursement based on tashkil and non-tashkil
         ANP. However, NTM-A/CSTC-A and UNDP’s monitoring contractor stated that UNDP used
         LOTFA funds to reimburse all ANP payroll and food costs since the total number of ANP paid was
         less than the authorized ANP level of 122,000. For September 2010, this amounted to about
         8,100 ANP non-tashkil and Afghan Public Protection Force personnel who should not have been
         reimbursed with LOTFA funds.
        UNDP reports from April through September 2010 showed that LOTFA funds were used to
         reimburse all MoF-reported ANP uniformed payroll costs. For the six-month period ending
         September 30, 2010, UNDP’s monitoring contractor reported that total payroll costs of about
         $166.6 million paid by MoF for all uniformed police (officers, non-commissioned officers or
         sergeants, and patrolmen) was comparable to the reimbursed amount of about $166.5 million
         of total ANP payroll costs processed by MoI.

Our review of the 2009 year-end adjustment confirmed that ANP payroll costs and food allowances
were not separately accounted for by the funding source (i.e. tashkil from non-tashkil). We also found
that the UNDP’s 2009 reconciliation was through March 2010 (the end of the Afghan year) and included
adjustments to the total ANP payroll and related costs for amounts disallowed by monitoring contractor
audits and paid by other sources. UNDP made adjustments for ANP payroll and food allowances that
should be paid by non-LOTFA funds totaling $16.9 million for 6,612 non-tashkil ANP. However, the
PERSTAT reported that there were 9,017 and 10,448 non-tashkil ANP assigned for February 2010 and
March 2010, respectively.11 As a result, there is no assurance that only eligible ANP payroll costs were
reimbursed by LOTFA or that sufficient information is available to track non-tashkil ANP forces such as

10
   From the Scope of Services/Roles and Responsibilities section of the Terms of Reference for the Monitoring
Agent of LOTFA Appendix to the LOTFA Phase V Project Document.
11
  UNDP reported the 6,612 non-tashkil ANP from seven non-tashkil units even though MoI reported the total non-
tashkil ANP from 56 non-tashkil units plus another unreported 454 non-tashkil ANP that were assigned to the
Afghan Public Protection Force as of March 2010. In addition, MoI Finance did not provide documentation for the
revenue generated from or information on the number of ANP that worked on non-tashkil security service
contracts and others security services funded by other sources.
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                            Page 14
the Afghan Public Protection Force and the new Afghan Local Police that are ineligible for such
reimbursement.

Additional Oversight and Monitoring Procedures Over ANP Payroll Costs and LOTFA Funds
Are Still Needed

The level of monitoring and oversight over ANP payroll costs and LOTFA funds continues to be an issue.
During our review of the oversight and monitoring procedures performed over both ANP payroll costs
and LOTFA funds, we found that:

        the value of UNDP oversight continues to be an issue;
        documentation of actions taken to address the audit issue were insufficient; and
        all available cash balances of international donors were not annually audited.

In addition, UNDP auditors reported that numerous management support positions required for
monitoring and oversight were vacant, including one for the first 25 months of Phase V. The LOTFA
Phase V Project Document states that UNDP will conduct regular monitoring to oversee the quantity,
quality, and timeliness of progress toward the benchmarks identified in the Results and Resources
Framework and Annual Work Plan. Until these oversight and monitoring issues are addressed, there will
continue to be concerns about the value of UNDP’s services needed to provide the expected quantity,
quality, and timeliness of progress in establishing and maintaining a viable police force. We provided a
letter to the Department of State for consideration during its discussions with the UNDP and the LOTFA
Steering Committee on the services UNDP was to perform and fees it was to assess for Phase VI of
LOTFA, which was to start in January 2011.12 In February 2011, State officials agreed to follow up on our
suggestions even though the revised draft Phase VI Project Document did not address the issues.

The Value of UNDP Services Continues to Be an Issue

UNDP provides the majority of oversight and monitoring of LOTFA and ANP payroll costs and charges a
management fee for these services. The UNDP management fee increased from three percent for
Phases I through IV to five percent for Phase V.13 The two-percent increase resulted in an additional
$16 million in management fees provided to the UNDP.14 In addition, an independent monitoring
contract was added to assist UNDP with its oversight and monitoring for LOTFA Phase V (September
2008 through December 2010).15 Although the Phase V Project Document did not disclose the contract
cost for the independent monitoring agent contract, the UNDP estimates that it will be $3.9 million for
Phase VI. Donors and contractors have expressed concerns about the value of services UNDP has
provided compared to the General Management Support (or management) fee it receives to administer
LOTFA.

12
   November 7, 2010 management letter action for consideration related to UNDP services and fees in LOTFA
Phase VI Project Document addressed to U.S. Ambassador to Afghanistan.
13
   The UNDP management fee for the first nine years from Phase I through Phase V was $61.3 million, based on
$1.4 billion of donations for the five phases. Based on the proposed 5 percent fee and anticipated contributions of
over $1.3 billion, the management fee will be an additional $68.9 million for Phase VI only.
14
   This estimate is based on the $821 million contributed to LOTFA for Phase V of which $255 million remains
available, as of June 2010.
15
   LOTFA Phase V was originally from September 2008 through August 2010. However, a four-month extension
was added to take Phase V through December 2010. The extension was to allow the LOTFA Steering Committee to
finalize the LOTFA Project Document for Phase VI from January 2011 through March 2013.
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                                Page 15
In Phase V, for the first time, the UNDP made available earned interest of $1.6 million for the
reimbursement of ANP costs. LOTFA reports do not include reporting of the earned interest rates or
available balances during this period to validate the accrued amount. Without validation, the
reasonableness of the accrued amount cannot be determined, even though the $1.6 million in interest
appears to be a significantly low amount, based on $821 million donated into LOTFA for the 28 months
of Phase V.

The net increase in fees to UNDP for administering the fund, consisting of the UNDP management fee
minus the interest earned, for Phase V that is now available in LOTFA for ANP costs resulted in a net
increase of $14.4 million. UNDP’s management fee increased even though an independent contractor
that performed the assessment of LOTFA Phase IV, noted, as part of its 2009 assessment that LOTFA
terms of reference provide a narrower scope for UNDP’s role as fund administrator than suggested by
other management documents. Further, the contractor noted that the management charge of
5 percent was generally too high, citing by comparison the World Bank management fee of 1.5 percent
to administer the Afghanistan Reconstruction Trust Fund. In November 2010, a State Department
official informed UNDP that the international donors were requesting a reduction in the management
fee to make a greater percentage of donated funds available to fund ANP payroll and other costs.

The 2009 LOTFA Phase IV assessment also noted that, given the considerable and urgent challenges MoI
and ANP still face in attaining institutional sustainability and improved performance, a wider role for
LOTFA may be warranted. As a result of this assessment, the contractor recommended employing an
independent monitoring agent in Phase V (beginning September 2008). The LOTFA Steering Committee,
including international donors, subsequently requested a contract be awarded for an independent
monitoring agent, which was funded above UNDP’s management fee, as per the Phase V Project
Document. The terms of the contract required the monitoring agent to assist the UNDP with the audit
of ANP payroll and food allowance costs, reconciliation of those costs, validation of reimbursable
amounts, development of institutional capacity with MoI, and performing headcounts and verification of
ANP staffing levels.

Since 2003, annual LOTFA progress reports have described institutional development as one of LOTFA’s
five priorities. For LOTFA Phase V, donors made it the second priority after police remuneration. UNDP
annually reports that the MoI’s lack of institutional capacity to manage personnel systems and processes
poses one of the greatest challenges to sustaining LOTFA implementation and management processes.
The UNDP has also reported challenges in filling numerous strategic Management Support Unit
positions, such as an EPS manager, gender coordinator, reporting and communications officer, and
budget analyst. The draft LOTFA Phase VI Project Document, which began in January 2011, includes
additional requirements to increase resources for the Management Support Unit and monitoring agent
contract. As of February 21, 2011, LOTFA Phase VI Project Document had not been approved. The items
still being discussed and negotiated are the management fee and the amount of funds the government
of Afghanistan will contribute each year as a step towards achieving greater self-sufficiency.




SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                     Page 16
Insufficient Documentation of Actions Taken by UNDP and Auditors to Address Audit Issues

UNDP and its annual financial statement auditors did not always provide sufficient documentation to
support the resolution of issues included in the various LOTFA audit and progress reports. As part of our
review of the annual and quarterly LOTFA audit and progress reports, we found that:

        audit issues were listed as resolved based on statements of actions taken;
        actions taken did not fully address the issue; and
        no evidence was provided to document that an issue was resolved.

Standards for Internal Control in the Federal Government states that internal control and all transactions
and other significant events need to be clearly documented, and the documentation should be readily
available for examination. It also states the monitoring of internal control should include policies and
procedures to ensure that the findings of the audit and other reviews are promptly resolved. Managers
are to complete, within established timeframes, all actions that correct or otherwise resolve the matters
brought to management’s attention. The resolution process begins when audit results are reported to
management and is completed after actions have been taken to (1) correct identified deficiencies,
(2) produce improvements, or (3) demonstrate the finding and recommendation do not need
management action.

UNDP and its monitoring agent have been working with MoI to verify ANP payroll costs. Each month,
the monitoring agent audits a sample of payroll and food allowance payments, performs sample
headcounts, verifies ANP being paid against data in the MoI identification card/registration database,
and develops MoI capacity. However, we found that:

        Not all actions reported address all issues – in one example, the monitoring agent reported that
         payment for payroll and food allowances was received by a person on behalf of others without
         their authorization to collect payment on their behalf and that individual acknowledgement of
         receipt was not available. In 2010, the monitoring agent contractor reported about $34,000 and
         $61,000 in cash payments made to a third party instead of to the appropriate officer for the
         quarters ending June 30th and September 30th, respectively, and that LOTFA noted the issue.
         However, there was no mention of the affected officers eventually receiving their pay or food
         allowances from that third party.16
        The audit samples used to verify pay and conduct headcounts were based on partial information
         provided instead of the population. For example, the monitoring contractor:
            Used a total of 79,292 EPS records provided by MoI to physically verify the existence of ANP
             receiving pay instead of the total of 111,437 EPS records reported by MoI for the quarter
             ending September 30, 2010.17
            Used the MoI identification card/registration database to compare to EPS records instead of
             the actual MoI human resource records. The monitoring contractor reported that MoI
             Human Resources Department had not provided records, did not have a database, and had




16
  The monitoring agent subsequently confirmed that the officers were paid and the issue is only administrative.
17
  The monitoring agent subsequently stated that the population is based on EPS as of a predetermined date and
that approximately 20,000 EPS records from central MoI were not available and excluded from the population.
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                              Page 17
             not given the contractors permission to conduct a review of MoI’s Human Resources
             program.18

LOTFA’s annual audit report for the 15-month period ending March 2007 noted the auditor accepted
that no action was needed to close a prior-year issue. The auditor reported a reconciliation was needed
since the actual head counts of ANP personnel reported by the Management Support Unit (64,923) and
Personnel Department (65,497) were different. However, the noted resolution was based on a possible
cause that one figure was a beginning-of-the-year head count and the other was an end-of-the-year
head count, with LOTFA saying only actual police numbers that report for duty are reimbursed. There
was no mention of the auditor following up to corroborate.

As noted earlier, UNDP has not provided any statistics or other information on the status of its efforts to
reconcile and validate the 111,936 ANP records and data in EPS with the MoI human resource records,
the MoI identification card/registration database, and the PAI registration database. In addition, the
UNDP-led EPS working group reported the following but have not provided any evidence that these
issues were resolved:

        In October 2009, 1,868 ANP were identified as on EPS and paid but were not listed as currently
         with ANP. UNDP confirmed that these officers were not in the MoI identification
         card/registration database and that they were still verifying their existence, especially of the
         142 ANP who turned in their ID cards.
        At a September 2010 working group meeting, UNDP informed the working group that
         1,500 Afghan National Civil Order Police were being paid outside EPS via an Excel spreadsheet.
         In November 2010, UNDP added that these national police were now on EPS but did not provide
         information on what was done to confirm their existence. The monitoring contractor reported
         the number of individuals listed as paid as per payroll summaries does not agree with the
         number of individual records in EPS. UNDP explained that the difference was because ANP can
         be paid outside of EPS by an Excel spreadsheet until EPS records are set up.19

In our November 7, 2010 management letter action for consideration, we suggested the LOTFA Phase VI
Project Document include language to help ensure that audit issues are properly resolved and
documented. As of February 2011, we had not received documentation of what was done to resolve
these issues even though CSTC-A stated there were 1,589 Afghan National Civil Order Police in training
and paid outside of EPS in September 2010. No documentation was provided to determine if the police
in training were the same persons that were paid outside of EPS. The status of these issues remains in
question and indicates that follow up is still needed to determine if these issues are resolved.

UNDP Auditors Did Not Audit All Available International Donations

Our review of annual audits of LOTFA found that independent auditors did not provide audit opinions on
all required financial statements. UNDP guidelines and contract terms (terms of reference) require
LOTFA statements of expenditures, assets and equipments, and cash position be audited and an opinion
issued. Each year, the independent auditors properly audited and provided opinions on the statements
of expenditures and assets and equipments, but did not properly audit and opine on the statement of
cash position. The auditors only opined on petty cash and not the international donations that

18
   The monitoring agent subsequently clarified that the number of human resource records are reported manually
and actual records are only available at the provincial levels where the ANP are assigned.
19
   UNDP officials said that MoI issued guidance that all ANP will be paid only through EPS in the future rather than
based on Excel spreadsheets.
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                                 Page 18
remained available in LOTFA for reimbursement to MoF for eligible ANP costs. The total cash amounts
not audited for 2009 was LOTFA’s reported outstanding balance of $12.85 million as of December 31,
2009.20

UNDP officials stated that a reconciliation of LOFTA’s year-end cash balance could not be confirmed
since LOTFA funds are commingled in one UNDP trust fund account and include funds from the Counter
Narcotics Trust Fund and the National Area Based Development Programme. As part of our audit, we
determined that the LOTFA-reported available balance of international donations was reasonable and
confirmed that all U.S. contributions to UNDP were deposited into LOTFA. However, periodic
confirmations of cash are needed to provide donors with an independent verification of the donated
funds that remain available to fund ANP costs. In our November 7, 2010 management letter action for
consideration, we suggested language be added to the draft LOTFA Phase VI Project Document to
ensure that external auditors complied with audit terms and audit all cash. In February 2011, our review
of the revised draft LOTFA Phase VI Project Document did not include any language to address this issue.


THE DEVELOPMENT AND CENTRALIZATION OF PERSONNEL AND PAYROLL SYSTEMS WILL
CONTINUE TO BE AT RISK UNTIL SECURITY, INFRASTRUCTURE, AND COORDINATION ARE
IMPROVED

The MoI is developing systems to help it support and sustain ANP. The development of complete and
reliable payroll and personnel processes, records, and reporting and centralized personnel and payroll
systems that are linked throughout Afghanistan cannot be achieved without improved security,
infrastructure, and coordination. CSTC-A stated the development and centralization of these systems
will continue to be a challenge until the war is over and core power and internet infrastructure can be
built, with full accountability of ANP down to the individual level at least several years away.

According to UNDP and its monitoring agent, security constraints have continuously prevented
processing and monitoring activities and timely reporting from occurring. CSTC-A added security
constraints include the fact that Afghanistan is a war zone with insurgent activity and threats. For
example, the monitoring agent could not establish project monitoring and evaluation activities in
Kandahar until June 2010 due to persistent difficulty in recruiting in a high-threat area. In other
examples, high security concerns in several provinces resulted in the following:

        The monitoring contractor could not travel by road and schedule flights to conduct audits at
         Helmand, Uruzgan, Nimroz, Daikundi, Paktika, Ghazni, and Nuristan during the quarters ended
         June 2010 and September 2010. CSTC-A added that road travel was a concern due to insurgent
         activity and roadside bombs.
        LOTFA auditors could not reconcile 2009 ANP salaries in a timely manner due to the late arrival
         of EPS reports from various provinces; LOTFA did not receive reports for Paktika and Nuristan
         due to lack of information technology, inadequate logistics, lack of infrastructure, and security
         concerns resulting in a $37 million timing difference21.




20
   The total donations to LOTFA for 2009 and for the entire Phase V (September 2008 thru December 31, 2010)
were $271 and $847 million, respectively.
21
  The timing difference is that the period the costs were incurred and payroll was paid is different from when
reported due to untimely receipt of reports from the provinces.
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                               Page 19
       LOTFA auditors could not audit the payroll costs for a 15-month period ended in March 2007,
        due to security and timeliness issues in 29 provinces. The report stated audit work was
        performed in Kabul and visits could only be made to Kunduz, Nangarhar, Balkh, and Herat.

Infrastructure continues to be a concern because of inadequate telecommunication and insufficient
commercial bank capacity. CSTC-A added that this immature infrastructure continues to hamper full
implementation of automated data systems. NTM-A/CSTC-A for AHRIMS and UNDP for web-based EPS
noted connectivity to provinces and districts, manual human resource data, differences in records and
data in systems, and infrastructure (equipment, lack of internet connectivity, inconsistent power, and
network failure) as challenges in developing the new systems. In its 2009 annual LOTFA progress report,
UNDP reported that irregular receipt of EPS reports from provinces (particularly Nuristan, Paktika, Khost,
and Ghazni) and inadequate national telecommunication infrastructure are challenges that can
jeopardize gains made in EPS reporting. UNDP also reported a lack of commercial banks in remote and
inaccessible districts was a challenge in expanding EFT throughout parts of the country where ANP still
receive pay by cash payments. CSTC-A noted paper records may have to be relied on for several years
until there is internet connectivity at the district level.

NTM-A/CSTC-A stated that a coordinated effort is underway to completely and properly develop ANP
personnel and payroll processes and systems. In October 2010, NTM-A/CSTC-A issued a white paper
stating the need for an overall information environment to deal with deficiencies in leadership, policy,
strategy, standards, governance, and processes. CSTC-A noted that the current decentralized and
unlinked MoI manual and automated information system environment developed as stand-alone payroll
and personnel systems (or in parallel stovepipes) is not easily coordinated or cross-referenced for
accuracy and integrity and that the infrastructure is still a concern at the province and district levels. A
CSTC-A official noted the need for coordination to develop utilities (power transmission, network and
computer services, and backup systems) for automated and centralized personnel and payroll systems
across all provinces and districts and the value added in linking those systems together. The following is
the current situation with the existing systems where coordination can help reduce duplication of efforts
along with the associated cost savings:

       A complete accountability of all ANP staff and the verification of personnel records has still not
        been accomplished. PAI databases were created without sufficient consideration to other data
        sources to allow for the comparison of PAI data to the existing payroll and personnel data. MoI,
        with assistance from CSTC-A, is planning a second personnel asset inventory this spring based on
        lessons learned to account for all ANP and capture the necessary data to compare amongst the
        systems. The captured data includes the input of a common data field (identification card
        number) to help confirm ANP records and data or identify records and data that need to be
        updated or removed.
       MoI maintains manual human resource and personnel records at various levels and manually
        reports human resource and personnel data to MoI headquarters. Efforts are underway to
        automate all ANP human resource and personnel records. MoI has developed HRIS and is
        currently creating HR and personnel records in HRIS for ANP one record at a time. As of
        September 2010, automated records have been created for about 50 percent of officers and
        sergeants (no records for patrolmen have been automated).
       MoI maintains stand-alone EPS data at the provincial level and report totals are manually
        provided by each province to MoI Headquarters on a monthly basis. In addition, EPS-created
        M41s and M16s are manually reported to both MoI Headquarter and provincial MoF Finance
        Offices (mustofiats). A UNDP-led working group is updating EPS and upgrading the EPS into a
        centralized web-based EPS to to link the payroll data between the headquarters, regions,
SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                         Page 20
        provinces, and districts. As part of this effort, the working group is reconciling payroll data in
        EPS to personnel and human resource data from the various systems and databases to ensure
        the completeness and accuracy of records prior to creating a web-based EPS. However, UNDP
        reported in its annual 2009 LOTFA progress report that discrepancies between EPS and MoI
        tashkil/human resource figures/MoI identification card/registration database/PAI data
        continued to be an assessment challenge.
       MoI, with assistance from NTM-A/CSTC-A CJ1 is initiating efforts to develop an ANSF personnel
        and human resource system – AHRIMS between headquarters, regions, provinces, and districts
        levels. A part of this effort includes incorporating individual tashkil numbers, biometrics, and
        time and attendance data and linking with the web-based EPS, MoI identification
        card/registration database, and AABIS systems.

Coordination is needed between MoI, UNDP, and NTM-A/CSTC-A to ensure all system requirements are
met, reduce duplicative efforts, and easily link/connect the various systems based on use of common
data fields.


CONCLUSION

A primary U.S. objective in Afghanistan is the development of an independent and accountable security
force that meets the needs of Afghanistan. The current status of MoI personnel and payroll systems and
records do not currently provide reliable or consistent data and records of ANP. Without adequate
systems or controls in place, the MoF cannot assure that it pays only legitimate ANP costs and that U.S.
and donor funds are only used to reimburse MoF for eligible ANP costs. The data and records in the
various personnel and payroll systems and databases will not be complete, consistent, or sufficient to
provide an accurate record of the ANP force ready for duty and paid for work performed until all ANP
personnel are completely accounted for, payroll and personnel records are reconciled, and sufficient
documentation that amounts reimbursed are proper. In addition, the reliability and effectiveness of the
systems and processes in place and being developed to support ANP cannot be sustained until
challenges with security, infrastructure, and coordination are addressed.




SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                         Page 21
RECOMMENDATIONS

To improve accountability for ANP personnel and payroll costs, we are making five recommendations.

To improve UNDP’s monitoring and oversight of U.S. and other international donations contributed into
LOTFA, as well as address the UNDP management fee we recommend that the U.S. Ambassador to
Afghanistan:

    1. Require that the U.S. representative on the LOTFA Steering Committee follow up with UNDP to
       ensure that an opinion is rendered on the available international donations in LOTFA at the end
       of each audit period, and request that the U.S. Mission at the United Nations help to negotiate
       and ensure that the UNDP management fee of three percent for LOTFA Phase VI is approved.
To address the development of MOI’s personnel and payroll systems to help ensure they provide
consistent and reliable ANP workforce data and payroll costs, as well as ensuring that only eligible ANP
costs are reimbursed with LOTFA funds administered by UNDP, we recommend that the Commanding
General for NTM-A/CSTC-A:

    2. Develop written guidance for roles and responsibilities of MoI and CSTC-A for future personnel
       inventories to account for the ANP workforce and verification of personnel and payroll data in
       MoI’s payroll, personnel, identification card/registration, and biometric databases and systems.
    3. Take the following steps as part of all future personnel inventories and data verifications to help
       ensure the reliability of the number of ANP personnel records and related data:
        a. Designate the MoI’s Human Resources Information System (HRIS) as MoI’s official source for
           personnel inventories and data verifications, registration of police, issuance of identification
           cards, and conversion of manual human resource records into Human Resources
           Information System for ANP.
        b. Compare common data fields (such as, identification card numbers) in each MoI personnel
           and payroll system and database to verify the data among those systems and databases.
        c. Incorporate the Biometric Identification Verifier with biometric jump kits to help prevent the
           creation of duplicate biometric records and related transaction control numbers for ANP
           personnel in the Afghanistan Automated Biometric Identification System.
        d. Verify selected payroll and personnel data fields in existing ANP records, enter missing data
           to ensure the completeness of all ANP records, and create a new record for any ANP
           personnel not in a system or database.
        e. Compare the number of records and common data fields in each payroll and personnel
           system to help ensure that all unverified ANP personnel are removed or identified as
           inactive and ensure the payroll disbursements are stopped.

    4. Develop a plan to ensure a coordinated effort by MoI and CSTC-A to automate and centralize
       each payroll and personnel system and database (web-based EPS, MoI identification
       card/registration database, HRIS, AABIS, and eventually AHRIMS) and establish a link between
       those systems and databases.
    5. Require MoI to report ANP payroll and food allowance costs separately by funding source to
       assist in identifying and tracking the costs that are eligible for reimbursement by LOTFA.



SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                        Page 22
COMMENTS

The U.S. Embassy Kabul, NTM-A/CSTC-A, and UNDP provided written comments on a draft of this report.
These comments are reproduced in appendices II - IV, respectively. In addition, NTM-A/CSTC-A provided
technical comments. Overall, NTM-A/CSTC-A expressed concern that the draft report did not give
enough credit for the progress made and MoI’s efforts to implement change. We agreed, in part, and
modified the report title and made certain other changes throughout the text to better reflect MoI’s
actions and address the technical comments, as appropriate. If the U.S. Embassy and NTM-A/CSTC-A
follow through on the actions they have outlined in their comments, they will substantially address our
concerns.

In its response, the U.S. Embassy partially concurred with the recommendation to address UNDP’s
administration and oversight of international donations in LOTFA. Specifically, the U.S. Embassy stated
that it is entirely appropriate that UNDP render an opinion on the international donations in LOTFA and
at the end of each audit period as a means of improving accountability and transparency and outlined
action Embassy representatives plan to take. The U.S. Embassy also stated that LOTFA donors, including
the United States, jointly wrote to UNDP asking for the UNDP management fee to be reduced to
3 percent and are awaiting a formal response. Finally, the U.S. Embassy noted that the U.S. Mission to
the United Nations is the responsible entity, along with other donor missions at the UN, for negotiating
a change in the management fee structure. We agree and have modified this recommendation to clarify
that the U.S. Embassy should request the U.S. Mission at the United Nations to negotiate and help
ensures that the UNDP management fee of 3 percent for LOTFA Phase VI is approved.

In its response, NTM-A/CSTC-A noted that the collaborative effort between SIGAR and NTM-A/CSTC-A
had helped shape the MoI’s ongoing Personnel Asset Inventory and resulted in actionable
recommendations that make a difference. Nevertheless, NTM-A/CSTC-A cautioned us in trying to hold
the MoI to the high U.S. Government Auditing Standards since the MoI is currently defining their
processes after 30 years of war and Afghanistan remains a “paper-based” culture. However, we
maintain that as stewards of U.S. taxpayer dollars adequate systems and controls must be in place to
provide sufficient assurance to safeguard U.S. and other international donations and ensure that funds
are used as intended to make proper ANP payments. NTM-A/CSTC-A concurred with the
recommendations to development written guidance for roles and responsibilities of MoI and CSTC-A for
future personnel inventories and to develop a plan to coordinate the efforts to automate and centralize
payroll and personnel systems and databases. It outlined actions it plans to take, which, if followed
through on, will address our concerns. NTM-A/CSTC-A partially concurred with the recommendation to
take a number of steps as part of all future personnel inventories and data verifications. Specifically, we
identified five separate steps that NTM-A/CSTC-A should take to help ensure the reliability of ANP
personnel records and related data. NTM-A/CSTC-A concurred with two of the five steps and partially
concurred with the other three. In response, we modified the three steps to reflect NTM-A/CSTC-A’s
comments. NTM-A/CSTC-A also partially concurred with the recommendation to require MoI to report
ANP payroll and food allowance costs separately by funding source but did not expressly state why.
Rather, it seemed to agree with the recommendation’s intent, but noted that the Afghan Financial
Management System would have to be modified to track the detail necessary to fully address the
recommendation.

In its response, UNDP noted all international cash balances can be tracked with precision and that
discussions on the UNDP management fee are currently being led at its headquarters by other
international donors, including the United States, with UNDP. UNDP also provided additional context
and several suggestions which were considered and incorporated into the report, as appropriate.


SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                         Page 23
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of the Afghan National Police (ANP) personnel management processes and
systems. This report addresses whether the Ministry of Interior’s (MoI’s) (1) personnel systems
accurately account for the ANP workforce, (2) payroll system accurately accounts for the ANP payroll,
including money disbursed by the Law and Order Trust Fund for Afghanistan (LOTFA), and (3) personnel
and payroll systems will support the ANP and be sustainable.

To identify, obtain an understanding, and assess the ability of ANP personnel management processes
and systems to account for the ANP workforce, we reviewed documentation from and conducted
interviews with responsible officials from the United Nations Development Programme (UNDP) and its
independent monitoring agent contractor, International Security Assistance Force Joint Command,
North Atlantic Treaty Organization (NATO) Training Mission-Afghanistan and Combined Security
Transition Command-Afghanistan (NTM-A/CSTC-A), the Department of State, U.S. contractors, and MoI‘s
Human Resources and Finance Offices. We attempted to perform comparative analysis of ANP
personnel counts reported by various sources – manual MoI human resource counts, MoI assigned
strengths reported monthly by PERSTAT, authorized levels (tashkil), MoI Identification Card/Registration
database, biometric records reported by MoI Biometric Center report from Afghanistan Automated
Biometric Identification System (AABIS), and MoI Human Resources Information System (HRIS). We held
several meetings with officials from MoI‘s Human Resources and Finance Offices, NTM-A/CSTC-A, and
UNDP to obtain information for our comparative analysis, updated information on the status of
personnel system and database implementations and other projects, and to help ensure proper
communication and coordination between the various projects. We also reviewed prior audit reports of
ANP by the U.S. Government Accountability Office and the Department of Defense and of the Law and
Order Trust Fund for Afghanistan (LOTFA) by UNDP’s independent accounting firms for background
purposes and to identify related audit issues that follow-up was required to obtain the current status. In
addition, we attempted to use data from MoI’s manual records and automated personnel systems to
determine the actual size of the ANP workforce. We determined that the data was insufficient and
prevented us from assessing the reliability of the different totals reported from the various manual
records and automated personnel systems.

To identify, obtain an understanding, and assess the ability of the ANP personnel management
processes and systems in place and being planned to account for ANP payroll costs and reimbursement,
we reviewed documentation from and conducted interviews with responsible officials from UNDP and
its independent monitoring agent, NTM-A and CSTC-A and its contractor, State’s Bureau of International
Narcotics and Law Enforcement Affairs, MoI-Finance Office, and Ministry of Finance (MoF) -Treasury.
Additionally, to obtain firsthand evidence of actual monitoring and oversight, as well as audits
conducted of ANP payroll processing and distributions and the management and reimbursement of
funds from LOTFA, we reviewed monthly, quarterly, and annual progress and annual audit reports,
including status of actions taken to address open findings and challenges. To further substantiate our
understanding of the personnel and payroll processes at the provincial and district levels, we selected
six districts and units (Gulstan, Hazrat Emam Sahib, Copper and Mine Unit, Jalrez, Urgoon, and Dehroud)
to perform additional analysis of reported data for the month of September 2010. We attempted to
gather all receipt and disbursement activities of ANP from 2002 to 2010. Since documentation was only
available for the current Afghan year (1389, which is from April 2010 to March 2011), we performed
detailed analyses of UNDP’s quarterly and annual LOTFA progress reports to account for the actual
international contributions into LOTFA and expenditures made from LOTFA to reimburse the MoF for
ANP costs for the entire period starting in 2002 (Phases I through V). We conducted interviews of the

SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                       Page 24
Office of the Secretary of Defense, the Department of State, CSTC-A, and UNDP and obtained evidence
of all U.S. contributions to confirm U.S. contributions to LOTFA. In addition, we attended weekly
working group meetings between UNDP and its monitoring agent contractor and CSTC-A and its
contractor to stay up to date on efforts to update MoI’s stand-alone Electronic Payroll System (EPS),
convert to a nationwide centralized web-based application, and reconcile EPS data with MoI human
resource and personnel data. In addition, we attempted to use data from MoI’s payroll system and
MoF’s accounting system to determine if only police that worked for ANP received pay and only those
eligible ANP costs were reimbursed by UNDP from LOTFA. We determined that the data was insufficient
and prevented us from determining if only ANP that work were paid and only eligible ANP costs were
reimbursed.

To assess whether the MoI’s personnel and payroll systems will support the ANP and be sustainable, we
reviewed documentation from and conducted interviews with responsible officials from UNDP and its
independent monitoring agent contractor, International Security Assistance Force Joint Command,
NTM-A/CSTC-A, State, U.S. contractors, MoI‘s Human Resources and Finance Departments, and MoF
Treasury. We held several meetings with officials from MoI‘s Human Resources and Finance Offices,
NTM-A/CSTC-A, and UNDP to obtain additional information on the status of its systems to automate MoI
human resource records, centralize the electronic payroll systems throughout the country, and develop
an ANSF-wide human resource and personnel system. We also reviewed prior audit reports of ANP by
the U.S. Government Accountability Office and Defense and of LOTFA by independent accounting firms
and monitoring agent for background purposes and to identify related audit issues that follow-up was
required to obtain the current status. We also attended weekly working group meetings between UNDP
and its monitoring agent contractor and CSTC-A and its contractor to stay up to date on efforts to
update MoI’s stand-alone EPS, convert to a nationwide centralized web-based application, and reconcile
EPS data with MoI human resource and personnel data.

We conducted work in Washington, DC and Kabul, Afghanistan, from June 2010 to March 2011 in
accordance with generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. The audit was
conducted by the Office of the Special Inspector General for Afghanistan Reconstruction in accordance
with GAGAS and under the authority of Public Law No. 110-181, as amended, the Inspector General Act
of 1978, and the Inspector General Reform Act of 2008.




SIGAR Audit-11-10 Security/ANP Personnel Management Systems                                     Page 25
APPENDIX II: COMMENTS FROM U.S. EMBASSY IN KABUL




SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 26
SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 27
SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 28
APPENDIX III: COMMENTS FROM NTM-A/CSTC-A




SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 29
SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 30
SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 31
SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 32
APPENDIX IV: COMMENTS FROM THE UNITED NATIONS DEVELOPMENT PROGRAMME




SIGAR Audit-11-10 Security/ANP Personnel Management Systems           Page 33
SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 34
SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 35
SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 36
SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 37
SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 38
SIGAR Audit-11-10 Security/ANP Personnel Management Systems   Page 39
                (This report was conducted under the audit project code SIGAR-013A).




SIGAR Audit-11-10 Security/ANP Personnel Management Systems                            Page 40
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                    improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                    improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                    improve contracting and contract management
                                     processes;
                                    prevent fraud, waste, and abuse; and
                                    advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                    Web: www.sigar.mil/fraud
                                    Email: hotline@sigar.mil
                                    Phone Afghanistan: +93 (0) 700-10-7300
                                    Phone DSN Afghanistan 318-237-2575
                                    Phone International: +1-866-329-8893
                                    Phone DSN International: 312-664-0378
                                    U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                    Phone: 703-602-8742
                                    Email: PublicAffairs@sigar.mil
                                    Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
